Report No. D-2010-076             August 17, 2010




      Recoupment of Advanced Education Costs from
          Disenrolled Air Force Academy Cadets
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASA                           Average Speed of Answer
DCIA                          Debt Collection Improvement Act of 1996
DCMO                          Debt and Claims Management Office
DDMS                          Defense Debt Management System
DFAS                          Defense Finance and Accounting Service
IAP                           Interest, Administrative, and Penalty charges
USAFA                         United States Air Force Academy
                                INSPECTOR GE NERAL
                              DEPARTME NT OF DEFE NSE
                                 400 ARMY NAVY DRIVE
                            ARLIN GTON , VIRGINI A 22202-4704


                                                                           August 17,2010

MEMORANDUM FOR THE U.S. AIR FORCE JUDGE ADVOCATE GENERAL,
                    ADMINISTRATIVE LAW DIRECTORATE
                   DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                     SERVICE

SUBJECT: Recoupment of Advanced Education Costs from Disenrolled Air Force
         Academy Cadets (Report No. D-2010-076)

We are providing this report for review and comment. We performed this audit in
response to a request by the Judge Advocate General , Headquarters, United States Air
Force on behalf of the Vi ce Chief of Staff of the United States Air Force. We considered
management comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that recommendations be resolved promptly. Based on
Director, DFAS Indianapoli s, comments, we revised Recommendation 4. The Director,
Defense Finance and Accounting Service Indianapolis conunents on Recommendations 3
and 4 were partially responsive. We request further comments from the Director, DFAS
Indianapolis on Recommendations 3 and 4 by September 17,2010.

If poss ible, send a .pdffi le containing your conunents to auddbo@dodig. mil. Copies of
your conunents must have the actual signature of the authorizing offi cial for your
organizati on. We are unable to accept the /S igned/ symbol in place ofthe actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Pl ease direct questions to me at
(703) 604-5868 (DSN 329-5868).



                                              f oJ;;~Cvou Q. m()Jv0L
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations
Report No. D-2010-076 (Project No. D2009-D000FD-0205.000)                      August 17, 2010


               Results in Brief: Recoupment of Advanced
               Education Costs from Disenrolled Air Force
               Academy Cadets

What We Did                                               What We Recommend
The Judge Advocate General of the U.S. Air                We recommend that the Director, Defense
Force requested that the DOD Office of the                Finance and Accounting Service, Indianapolis,
Inspector General determine whether the                   develop and implement changes in the
collection process to recover advanced                    collection process related to large debts that
education costs from disenrolled Air Force                include advanced education costs for disenrolled
Academy cadets was effective. We identified               Air Force Academy cadets. Specifically,
130 disenrolled cadet cases totaling                      establish a special collection protocol for large
$13.95 million submitted to Defense Finance               debts that implements procedures to:
and Accounting Service (DFAS) for collection                • prioritize such debts upon receipt;
from April 1988 to March 2009 and reviewed                  • ensure that staff begin resolution within one
the DFAS collection process and results for                   day of the debtor appearing on the Expired
these cases.                                                  Suspense Report;
What We Found                                               • seek collection from these larger debtors on
                                                              a priority basis and make referral to
The collection process to recover advanced                    management for account resolution earlier in
education costs from disenrolled Air Force                    the collection process; and
Academy cadets was not effective because                    • provide specially trained and experienced
DFAS did not give these debts priority and did                staff at the Call Center to handle incoming
not proactively manage their collections.                     calls from large debtors.
Specifically, DFAS did not have a special
collection protocol for large ($50,000 or more)
individual debt cases such as the advanced                Management Comments and
education debts. Controls were lacking to
ensure prompt:                                            Our Response
    • establishment, initialization, and first            The Director, DFAS Indianapolis, concurred
        notification to the debtor to support             with Recommendations 1 and 2 and provided
        timely actions to recover and collect             responsive comments. DFAS made process
        these debts, and                                  modifications to prioritize the initialization of
    • resolution of suspended debts.                      these large debts in its accounting system and to
                                                          review changes in suspense status on a timelier
As a result, DFAS took, on average, 148 days to           basis. However, the Director’s comments were
issue its first demand letter to the debtor and, on       partially responsive for Recommendations 3 and
average, 551 days to make its first collection.           4. We agreed with the Director and revised
Also, as of March 2009, the overall status of the         Recommendation 4 to remove the
$13.95 million of accounts submitted to DFAS              recommendation to establish a special phone
for collection was:                                       number for large debtors. We are requesting
    • $1.81 million (13.0 percent) collected,             that the Director, DFAS Indianapolis, provide
    • $2.52 million (18.1 percent) written off,           additional comments on Recommendations 3
        and                                               and 4. Please see the recommendations table on
    • $9.62 million uncollected, including                the back of this page.
        7.21 million (74.9 percent) that were
        inactive and $3.90 million (40.5 percent)
        that were more than 5 years old.


                                                      i
Report No. D-2010-076 (Project No. D2009-D000FD-0205.000)         August 17, 2010

Recommendations Table

        Management               Recommendations    No Additional Comments
                                Requiring Comment         Required
Director, Defense Finance and   3, 4                1, 2
Accounting Service,
Indianapolis


Please provide comments by September 17, 2010.




                                          ii
Table of Contents

Introduction                                                    1

      Objective                                                 1
      Background                                                1
      Review of Internal Controls                               3

Finding. Collection Process for Advanced Education Debts        4

      Recommendations, Management Comments, and Our Response   10

Appendix

      Scope and Methodology                                    13

               Prior Coverage                                  14

Management Comments

      Defense Finance and Accounting Service                   15
Introduction
Objective
Our audit objective was to determine whether the collection process to recover advanced
education costs from disenrolled United States Air Force Academy (USAFA) cadets was
effective. See the Appendix for a discussion of the scope and methodology related to the
objective. Implementing the recommendations in this report will improve the collection
process for these large accounts receivable.

Background
We conducted this audit in response to a request by the Judge Advocate General,
Headquarters, United States Air Force on behalf of the Vice Chief of Staff of the United
States Air Force based on the low cumulative collections for accounts receivable from
disenrolled USAFA cadets expected to repay advanced education costs.

United States Air Force Academy
                                              Figure 1. The U.S. Air Force Academy Campus
The mission of the USAFA is to
educate, train, and inspire men and
women to become officers of character,
motivated to lead the United States Air
Force in service to our nation. The
President of the United States appoints
cadets to the Academy. USAFA cadets
sign a service agreement to serve as
commissioned officers in the Air Force
upon graduation.                            Source: www.usafa.af.mil/photos

As a condition to receiving advanced education, cadets agree that if they voluntarily
resign or breach their agreement and are disenrolled in their third or fourth year of school,
they may be required to reimburse the United States government for the percentage of
education costs equal to the period of active duty the cadet fails to complete. The
Secretary of the Air Force determines whether disenrolled cadets receive an order to
serve as an enlisted member of the Air Force or to reimburse the government for the cost
of their education at the Academy.

Defense Finance and Accounting Service
Defense Finance and Accounting Service (DFAS) has the responsibility to collect DOD
out-of-service debts (including the recovery of advanced education costs from disenrolled
cadets) in accordance with the Debt Collection Improvement Act of 1996 (DCIA). One




                                             1
DCIA goal is to maximize collection of delinquent debt1 owed to the U.S. Government.
One purpose of the DCIA is to maximize the collection of delinquent debts by ensuring
quick action to enforce recovery of debts, using appropriate collection tools. To
supplement collection efforts under this act, agencies are required to notify and transfer
delinquent debts more than 180 days old to the Department of Treasury in an effort to
collect, by offset, monies due. In addition, the DCIA allows for additional debt collection
methods including the use of private debt collection contractors, reporting delinquencies
to credit reporting bureaus, and referral to the Department of Justice for litigation.

The Indianapolis Center is one of the DFAS centers with debt collection responsibilities.
It initiated a total of 167,385 new debts in the Defense Debt Management System
(DDMS) amounting to $153.4 million between October 1, 2008, and June 26, 2009,
resulting in an average debt of $917. In contrast, the average advanced education debt
for disenrolled USAFA cadets that were the subject of this audit exceeded $50,000.
DFAS initiated only 145 new debts (of the 167,385 total) that exceeded the $50,000
amount during the aforementioned period.

The DFAS Indianapolis Center performs debt collection activities for the Air Force.2
Specifically, the Debt and Claims Management Office (DCMO) is responsible for the
collection or settlement of debts owed the DOD by former military members, former
DOD civilian employees, and other individuals including disenrolled USAFA cadets.
The USAFA refers advanced education debt packages for disenrolled cadets with a
financial obligation to the United States government to DFAS Indianapolis for collection.
These debt packages include a transmittal letter with the name and social security number
of the debtor, the amount of the debt owed, the debtor’s last known contact information,
accounting classification, and other debt-related documents to support the government’s
claim for recoupment. The USAFA mails these packages to DFAS Indianapolis.

DFAS Indianapolis routes the USAFA debt packages to the Special Actions Section of
the DCMO. The Special Actions staff verifies the validity of the debt and establishes the
new debt in DDMS. The DFAS Indianapolis DCMO uses the DDMS to establish, notify,
manage, and monitor out-of-service debts. In addition, DDMS provides DCMO
management the ability to review the status of current case files. DFAS Indianapolis
regulations state that it is the supervisor’s responsibility to monitor and promptly collect
large accounts receivable balances.

Once a debt is established in DDMS, the Special Actions Section physically transfers the
debt package to the DCMO Customer Operations Section to enter additional information
in DDMS to generate an initial demand letter to the debtors. An initial demand letter
states the debt, the collections process, and the contact information for DFAS
Indianapolis. If debtors do not respond to the initial demand letter, DFAS sends a second


1
  Delinquent debt refers to a debt that has not been paid by the due date specified by the agency’s initial
written demand for payment.
2
  DFAS Denver Debt and Claims Management Office for Out-of-Service public debts migrated to DFAS
Indianapolis in August 2008.


                                                      2
and, if necessary, a third demand letter. A debt becomes delinquent one day after the
payment due date or other agreed upon date, depending on the agreement or instrument.
Unless a specific exception applies, at 91 days, DDMS automatically transfers the debt to
the Department of Treasury for additional collection efforts as indicated in Figure 2. The
Customer Operations Section personnel also answer the Call Center phones and
document their interactions with debtors in DDMS.

Review of Internal Controls
We determined that the following internal control weaknesses, as defined by DOD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006,
existed in the collection process for advanced education costs from disenrolled United
States Air Force Academy cadets. DFAS lacked appropriate monitoring controls which
would ensure prompt establishment, initialization, and first notification to the debtor to
support timely actions to recover and collect these debts. In addition, monitoring controls
did not ensure prompt resolution of suspended debts. Implementing the
recommendations in this report will improve the internal controls over the collection of
accounts receivable from disenrolled United States Air Force Academy cadets. We will
provide a copy of the final report to the senior official responsible for internal controls at
the DFAS Debt and Claims Management Office.




                                              3
Finding. Collection Process for Advanced
Education Debts
The collection process for accounts receivable from disenrolled Air Force Academy
cadets to recover advanced education costs was not effective. DFAS Indianapolis did not
process these large debts on a priority basis and did not proactively manage the collection
of the 130 disenrolled cadet cases valued at $13.95 million, between April 1988 and
March 2009. The collection process was not effective because DFAS Indianapolis debt
collection procedures and processes did not:
             prioritize the initial set up, debtor contact, and collection actions for these
               large debts;
             perform timely notification to the debtor; and
             effectively manage the debt cases on the Expired Suspense Report.
As a result, DFAS:
             collected $1.81 million (13.0 percent) on these advanced education debts;
             wrote-off $2.52 million (18.1 percent); and
             reported a remaining outstanding balance of $9.62 million, including
               $7.21 million (74.9 percent) that were inactive and $3.9 million that were
               more than 5 years old (40.5 percent).

The Debt Collection Improvement Act of 1996
Congress enacted the Debt Collection Improvement Act of 1996 (DCIA) to maximize
collections of delinquent debts owed to the Government by ensuring quick action to
enforce recovery of debts and the use of all appropriate collection tools. DFAS is
responsible for debt collection for the Department of Defense.

DOD Financial Management Regulation
The DOD Financial Management Regulation, volume 5, chapter 28, states, “DOD
Components shall take prompt and aggressive action to recover and collect debts owed to
DOD and to the United States and shall pursue continuing follow-up actions, as necessary
to ensure that debts owed to DOD and to the United States are collected.” Volume 5,
chapter 29, provides the flow chart depicted in Figure 2 that sets forth the various steps in
debt processing in DDMS with established time frames. For instance, initial notification
to the debtor should occur on Day 2 after establishing the debt in DDMS on Day 1. In
addition, the chart indicates that delinquent debts should be referred to the Department of
Justice within one year of delinquency.




                                             4
     Figure 2. DOD FMR Flow Chart
DDMS Debt Processing Steps with Elapsed Times




                 5
Age of Debt Affects Collections
The age of a debt directly affects the opportunity to collect it because the chances of
collection decrease rapidly as the age of a debt increases. Debt collection statistics3 show
that historical collection rates decline to 52.1 percent if a debt is 6 months old before
collection starts. This rate falls to 39.1 percent at 9 months and 22.8 percent at 12
months. These statistics emphasize the importance of early communication with a debtor
to increase the opportunity for increased collections. Administrative delays at DFAS
Indianapolis in producing the first demand letter and starting communication with the
advanced education debtors may significantly impact the ultimate collections amounts.

Debt Establishment and Initial Payment Demand
Historical Results
The time between the date that the United States Air Force Academy (USAFA)
transmitted the debts to DFAS to the date DFAS established the accounts receivable and
initiated the demand letter for payment was excessive. The excessive time was
detrimental to initial collections on the accounts. We reviewed 87 of 130 transmittal
letters4 from USAFA to DFAS for disenrolled cadets. The average period from the
transmittal letter date to the debt establishment date shown in DDMS was 61 days.
Further, the average elapsed period from the debt establishment date to the issuance of
the initial demand letter was 87 days for 126 cases.5 Combining these elapsed periods
shows that DFAS took an average of 148 days from the date of the transmittal letter to
the date of the DFAS initial payment demand letter to the cadet.

Recent Processing
Through June 2009, DFAS established 167,385 new debts in DDMS for FY 2009. Only
145 of these new debts were $50,000 or greater. In contrast, all but one advanced
education debt exceed $50,000. DFAS Indianapolis, Special Actions and Customer
Operations Section process debt packages in the order received. DFAS does not give
priority to these large debts owed by former Air Force Academy cadets because it
processes debts on a first-in, first-out basis. DFAS had not made initial payment demand
to four of the cases we reviewed as of the date of our site visit in June 2009. The average
elapsed time since establishment of these four accounts in DDMS was 265 days.
Because DFAS processes very few debts greater than $50,000, DFAS could focus on
these larger debts to prioritize and reduce the advanced education debt backlogs, and
increase the overall likelihood of collections. DFAS Indianapolis can identify these large
debts upon receipt and mark them for priority processing. By reducing the time required
to establish these debts, the first demand letter could be sent in a more timely manner



3
  Source: Collection Trends: Commercial Collection Agency Association Commercial Law League of
America, “Collectability of Delinquent Commercial Debts At Time Intervals After The Due Date,”
undated, retrieved from www.harvestrecoveryonline.com/10-18-04COLLECTABILITYCHART.pdf, on
July 10, 2009
4
  USAFA only maintained transmittal letters from 2000 to the present. Of the 130 confirmed debt cases,
only 87 transmittal letters were available for review.
5
  Initial demand letters were not produced for 4 of the 130 cases we reviewed.


                                                   6
than under the current first-in, first-out process. Although DFAS Indianapolis should
maintain a proper level of collection efforts for all accounts, priority handling of these
larger debts would allow quick initiation of the debts and improve the prospect of
collection.

Managing the Debt Collection Process
Historical Results
We obtained collection information as of June 2009 from DDMS for 130 disenrolled
USAFA cadets submitted to DFAS for collection since 1988. These cases averaged
$107,343 making them some of the largest individual debts for DFAS collection. We
reviewed the date of the first collection shown in DDMS for 107 disenrolled cadet cases
(there were no collections on 23 cases) and determined the average elapsed period from
the date of the first demand letter was 551 days. This lengthy period indicated that DFAS
needed a more proactive collection process. The additional interest, administrative fees,
and penalties (IAP) increased the amount debtors owed, potentially making the collection
process even more difficult. Decreasing this elapsed period would also reduce IAP that
applies to a debt.

As shown in Table 1, DFAS collected $1.81 million (13.0 percent) of the $13.95 million
original debt amount submitted for the 130 advanced education debt cases (not including
$0.65 million IAP collected). During the same period, DFAS wrote off $2.52 million
(18.1 percent) of such amounts as uncollectible (not including IAP).
 Table 1. Historical Results for Recoupment of Advanced Education Costs for
         Disenrolled Air Force Academy Cadets April 1988 to June 2009
                                Amount of Debt
                                                       Percentage of Total
                                   (millions)
Submitted for collection            $13.95                     100
Collected                              1.81                    13
Written off (Uncollectible)            2.52                    18
Debt Outstanding                       9.62                    69


As of June 2009, DFAS’ ineffective collection process resulted in an outstanding balance
of $9.62 million that was largely inactive (74.9 percent) and significantly aged (40.5
percent were more than 5 years old). Inactive accounts have no payments during the
prior 90 days. Collections of original debt principal for the accounts more than 5 years
old were less than 10 percent (not including $0.29 million IAP collected). Changes in the
collection process for these advanced education debts could increase collections and
reduce long outstanding inactive accounts.




                                              7
Collections for the Period June 2008 – June 2009
During the 12 months before our site visit to DFAS Indianapolis in June 2009, DFAS
collected only $0.41 million (4.1 percent) on an average outstanding balance of
$9.90 million for the advanced education debts. Table 2 shows these collections by aging
group for the related accounts. DFAS did not make any collections for accounts
established within this 12-month period. In addition, according to DDMS, 74.9 percent
of the balance outstanding for advanced education debts was inactive during this same
period. The collection process during the 12 months prior to June 2009 continued to
produce results generally comparable to the historical results from April 1988 to June
2009.
          Table 2. Collections During Latest 12 Months by Aging Category
                                    ($ thousands)
                                          Average      Collections    Percentage
                        Number of         Balance      June 2008 to     Rate of
    Age of Debt            Debts*           Due         June 2009    Collection **
More than 5 years            53            $4,487.9      $371.7           8.3
1 to 5 years                 39              4,981.9        32.8          0.7
Less than 1 year              6                432.5         0.0          0.0
        Totals               98            $9,902.3      $404.5           4.1
*
    Includes nine debts that were closed during the 12-month period.
**
     Collections on average balance due.


During our site visit we reviewed the DFAS collection process. Our interviews with
DCMO personnel and review of data from DDMS indicated a collection process that
relies on automated processes for initial communications with debtors and responses to
inquiries from debtors. DFAS was not proactive in its outreach to collect and settle large
advanced education debtors. Limited debt collection actions can significantly age
accounts receivable and lessen the opportunity for substantial collections. We reviewed
the account notes in DDMS for the inactive accounts and did not find any indications that
DFAS contacted the cadets.

DFAS may suspend accounts receivable, including advanced education debts, from
collection action for various reasons. Examples of suspense actions include challenges
by the debtor requiring resolution, financial hardship, submitting the account to a private
collection agency, bankruptcy, and preparing the package to refer the debt to the
Department of Justice. Typically, when DFAS places an account in a suspense status, a
standard time period was set after which collection actions should resume. On that
elapsed date, DDMS reports the account on the Expired Suspense Report. DFAS
personnel should review this report daily to identify accounts for follow up. DCMO
personnel stated that DCMO had not worked the expired suspense file report since
September 2008. This report functions as a management control to resume collection
activity for the debts listed. Of the 89 open advanced education debts from the USAFA,
32 (36.0 percent) appear on the June 2009 report. Their average period since expiration
of suspense status without the necessary manual intervention was 152 days. Reviewing


                                                       8
these accounts on a timely basis would allow DFAS staff to involve management earlier
in the process for delinquent account resolution. The staff should review accounts on the
Expired Suspense Report daily and involve management for timely decisions regarding
enforced collection, including early referral to Department of the Treasury or Department
of Justice, or engaging with debtors on adjustments to their payment schedule or the
amount owed.

Call Center Response to Debtors
DFAS could improve the Indianapolis Call Center’s response to debtors. Debtors contact
the Indianapolis Call Center information and account resolution services personnel. The
Call Center established two performance metrics: the Average Speed to Answer (ASA),
and Abandoned Calls. The ASA metric establishes a highest acceptable time to answer
of 90.5 seconds. The Abandoned Calls metric establishes a highest acceptable rate of
abandonment as 15.5 percent of calls coming into the call center.

The center received 19,433 incoming calls in June 2009. The automated Interactive
Voice Response System6 handled 6,392 of these calls. The remaining 13,041 incoming
calls were routed to an average of 11 Call Center staff who answered 9,636 (73.9 percent)
of those calls. The ASA for June 2009 was 478 seconds (7 minutes and 58 seconds).
DFAS identified the remaining 3,405 (26.1 percent) calls as abandoned. Personnel at the
Call Center did not meet the metrics on either of the primary goals. The relationship
between a debtor’s call center experience and collections from the debtors was not
directly measurable. However, with 26.1 percent of the calls abandoned and a nearly
8 minute average wait time for answering, the Call Center may not be contributing to a
positive collection process for the larger advanced education debts. DFAS should
establish special protocols for the larger debts.

Conclusion
The debt collection process at DFAS Indianapolis hampered the effectiveness of the
collection for the advanced education debts. Because DFAS did not give priority to these
large debts, long periods elapsed before personnel sent the first payment demand on new
accounts and those debts remained in suspended status without follow up for longer
periods. To make collection efforts more effective, DFAS must apply proactive
management of the recoupment process for large debt that included advanced education
cost debts. DFAS Indianapolis need take action to decrease initial debt set up and contact
times, and facilitate active collection processes for these large debts to improve
collections.




6
  The Interactive Voice Response System is an automated telephony system that interacts with callers,
gathers information, and routes calls to the appropriate recipient. An Interactive Voice Response System
accepts a combination of voice telephone input and touch-tone keypad selection and provides appropriate
responses in the form of voice, fax, callback, e-mail, and perhaps other media.


                                                    9
Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of the Director, Defense Finance and Accounting Service Indianapolis,
management comments, we revised recommendation 4 to remove the recommendation to
establish a special phone number for large debtors. Management indicated significant
improvements in the Contact Center average speed to answer incoming calls. These
improvements, if maintained, meet the intent of the recommendation to provide timely
contact to accounts with large ($50,000 or greater) balances and allow priority handling
of calls.

We recommend that the Director, Defense Finance and Accounting Service,
Indianapolis implement changes in the collection process for large debts that include
advanced education debts for disenrolled Air Force Academy cadets. Specifically,
while continuing to meet its general collection goals for all accounts receivable,
establish a special collection protocol for large debts that implements procedures to:
   1. prioritize large debts upon receipt and reduce the time to establish those
cases in the Defense Debt Management System and make initial payment demand;

Defense Finance and Accounting Service Comments
The Director, Defense Finance and Accounting Service, Indianapolis, agreed with the
recommendation. The Director stated that process modifications will allow all DCMO
debts of $50,000 or higher to be prioritized.

Our Response
The Director’s comments were responsive and met the intent of the recommendation. No
additional comments are required.

   2. ensure that Defense Finance and Accounting Service staff begin resolution for
these debts within one day of their appearance in the Expired Suspense Report;

Defense Finance and Accounting Service Comments
The Director, Defense Finance and Accounting Service, Indianapolis, agreed in principle,
stating that resolution will occur within 5 days for debts of $50,000 or greater after being
added to the Expired Suspense Report due to resource limitations.

Our Response
The Director’s comments were responsive and a resolution process beginning within five
days after accounts appear on the Expired Suspense Report meets the intent of the
recommendation. No additional comments are required.

   3. seek collection from these larger debtors on a priority basis including
requesting management decisions regarding enforced collection through Treasury



                                            10
or Department of Justice, or engaging with debtors on adjustments to their payment
schedules or the amount owed; and

Defense Finance and Accounting Service Comments
The Director, Defense Finance and Accounting Service, Indianapolis, did not concur with
this recommendation, stating that process changes to prioritize debts $50,000 or larger
addressed in Recommendation 1 would allow initial demand letters to be issued within 30
days of DFAS receiving the account for collection. The Director also stated that a
checklist is available and provided for customers to aid in submitting debt packages to
DCMO to reduce rejects. Additionally, the Director recommended that the Service
representatives submit debt packages in a timely manner to improve collection efforts.
The Director noted that the auditors and management discussed the timeliness and
accuracy of these debts during the audit but this was not included in the IG report.

Our Response
The Director’s comments were partially responsive. The process changes to issue initial
demand letters to large debtors within thirty days are a positive step in the right direction.
We discussed the timeliness and accuracy of the debt package submissions with DFAS
personnel during the audit. While we agree with the Director that receiving debt
packages as soon as practicable and reducing rejects of packages submitted to DFAS for
collection is desirable, the recommendations only addressed DFAS actions after receipt
of a valid debt package. The intent of this recommendation was to encourage collection
efforts for large debts ($50,000 and greater) on a priority basis once a valid debt package
is received by DFAS. Specifically, we recommended more active collection management
at decision points throughout the collection process after initialization of the debt. We
request additional comments from the Director to include specific actions planned for
management personnel to become actively involved as early in the collection process as
feasible. Experienced management personnel would be able to achieve more fixed
payment arrangements, make decisions regarding early referral to Treasury or the
Department of Justice, and engage with the large debtors to determine adjustments to
original payment schedules or compromise of the amount owed with the objective of
increasing cash collections.

   4. provide specially trained and experienced staff at the Call Center to handle
incoming calls from large debtors.

Defense Finance and Accounting Service Comments
The Director, Defense Finance and Accounting Service Indianapolis, non-concurred with
the original recommendation which included recommending establishing a special phone
number for large debtors, stating that improved performance at the Contact Center
negates the need for a dedicated phone number and staff. Additionally, DCMO will
annotate larger debts to alert Customer Service Representatives when answering the calls.

Our Response
The Director’s comments were partially responsive. We agree that the improved
performance at the Contact Center cited by the Director, if maintained, would negate the


                                             11
need for a special phone number for large debtors and have revised the recommendation
accordingly. However, improved average speed to answer incoming calls does not
resolve the need for special handling of phone calls with large debtors to achieve
increased cash collections. DFAS should provide specially trained, experienced staff,
knowledgeable in the additional challenges in collecting or resolving these large debts to
work with these accounts. Such specially trained staff would involve management in the
collection process when necessary and improve the collection rates for these individuals.
We request that the Director reconsider the revised recommendation and provide
additional comments including a discussion of actions taken or planned that would result
in specially trained and experienced staff to handle large debtor contacts and make timely
referrals to management for collection decisions that would increase cash collections.




                                           12
Appendix: Scope and Methodology
We conducted this performance audit from May 2009 through May 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our finding and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We performed the audit of the debt collection procedures to recoup advanced education
costs from disenrolled USAFA cadets to determine if the procedures were effective. We
conducted the audit work at the USAFA Colorado Springs, and DFAS Indianapolis. At
each site, we interviewed applicable personnel, performed walkthroughs of the debt
collection process, and gathered supporting documentation, procedure manuals,
organization charts, and management reports.

The universe of disenrolled USAFA cadets with advanced education debts that we
reviewed consists of 130 debt cases with establishment dates between April 1988 and
March 2009. See Table 1 in this report for a summary. We obtained a listing of debt
cases from USAFA files during a site visit. We obtained a listing of currently open debt
cases and a listing of previously closed (deleted) debt cases from DDMS during our site
visit to DFAS Indianapolis. We reconciled these listings to compile a universe of known
USAFA advanced education debt cases. Because of limited record retention at each site,
we do not have absolute assurance that the universe contains all disenrolled USAFA
cadets with advanced education debts submitted to DFAS for collection. However, we
determined that this universe was sufficient to meet our audit objective.

We obtained account information for these debt cases from DDMS to review their
collection history and dates for various events during the collection process. Specifically,
we reviewed the:
             summary collections and write-off history for each debt,
             timing of the debt establishment into DDMS,
             timing to send the first debt demand letter,
             period the account balances have been outstanding, and
             status of such debts that were suspended from the collection process.
In addition, we reviewed the procedures of the debt collection process at DFAS
Indianapolis and considered the effectiveness of the procedures for these large individual
debt cases. For our review, we defined large individual debt cases as accounts receivable
which were $50,000 or greater.

Use of Computer Processed Data
We relied on computer-processed data from the Defense Debt Management System to
prepare this report. Specifically, we obtained summary financial information for original
debt amounts, collections, write-offs, and current balances outstanding as well as the
dates for events during the collection process. We examined source documents to include



                                            13
transmittal memorandums, correspondence, and worksheets related to USAFA advanced
education debts to conclude that the DDMS population of such accounts was reliable for
our purposes. We used the summary information to compute population statistics such as
average lengths of time; cumulative collections for, and write-offs of, accounts
receivable; and accounts receivable aging. We did not test detail transactions because the
use of averages and summary financial totals was adequate to meet our audit objective
and support our recommendations.

Prior Coverage
There was no prior audit coverage conducted on the recoupment of advanced education
debts from disenrolled academy cadets during the last 5 years.




                                           14
Defense Finance and Accounting Service, Indianapolis
Comments

                                                         Final Report
                                                          Reference




                                                       Revised, Page 2
                   Click to add JPEG file              and 8

                                                       Revised, Page 3




                                  15
Click to add JPEG file




               16
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




               17
